  COPING WITH TWIN DISASTERS:

   HHS RESPONSE TO THE 1989

  HURRICANE AND EARTHQUAKE





    'ERVICES.




   ItYd3a



OFFICE OF INSPECTOR GENERAL
OFFICE OF EVALUATION AND INSPECTIONS
                                       DECEMBER 1990
    COPING WITH TWIN DISASTERS:

     HHS RESPONSE TO THE 1989

    HURRICANE AND EARTHQUAKE





                    Klcnaro r. l\usserow
                    INSPECTOR GENERAL




OEI-09- 90- 01040                          DECEMBER 1990

                                EXECUTIVE SUMMARY

PURPOSE

This inspection evaluated the Deparent of Health and Human Services ' (HS) response to
Hurrcane Hugo and the Lorna Preta earhquake and identified ways to improve response
effons to futur disasters.

BACKGROUND

In 1989, HHS provided disaster recovery assistace and some emergency relief after
(a) Hurcane Hugo devastated pars of Pueno Rico, the Virgin Islands and Nonh and South
Carolina, and (b) the Lorna Preta earquake    caused massive destrction in   Nonhern
California. These combined disasters were the most   destrctive and costly   this centur.

The Federal Government always provides financial assistace for recovery when the
President declares a major disaster but only assists with dict relief when State and local
capabilties ar overwhelmed. The HHS provides both imedate response and long term
recovery assistace under the diection of the Federal Emergency Management Agency
(FMA), which coordinates the entie Federal response.
We interviewed 68 Federal, State and local offcias who had fist hand experience with the
relief and reovery effons in the affected areas. We reviewed situation repons and other
documents descrbing the disasters and the response. We did not study Nonh Carolina
experiences.

FINDINGS

The Department responded promptly and appropriately to the earthquake and hurrcane to
restore program operatons ant! provide direct disaster relief.

Managers in HHS took all necessar steps to restore progr operations promptly and to
provide immedate relief and reovery assistace. The effects of the disasters, and hence the
responses, were different in Pueno Rico, the Vlfgi Islands, South Carlina and California.
Government services broke down in St. Croix , Vlfgin Islands, but not in the other areas.
Although some Head Sta and other HHS program centers were closed, most were restored
within a few days. A few in the Vlfgin Islands were still closed at the time we issued our draft
repon. Social Securty Admnistrtion (SSA) facilties were daaged, but all were restored in
a week or less. Social Securty benefits were not interrpted. The Public Health Service
(PHS) provided some immediate disaster response in the Vlfgin Islands and Pueno Rico, and
the PHS National Institute for Menta Health provided the fundig mechanisms for counseling
to disaster victims in each affected area.
The Department experienced internal communicaton problems as well as both
communicatn and coordinaton problems with FEMA.

Some HHS managers, parcularly at the regional level, were confused about which agency
within the Deparent is responsible for coordinating the disaster response. This confusion
had not been resolved by the Januar 1990 trsfer of primar disaster authority from the
Offce of the Secretar to PHS. Both HHS and State officials had problems communicating
and coordinatig with FEMA. Some of these problems caused delays in transportng needed
supplies and personnel that could result in deaths in a catastrophic disaster.

Arrangements for funding disaster response activitis are inaequate.

Few discretionar or formula grant funds are available within the Deparent for use in
disaster relief to fill gaps not covere by FEMA or other federa agencies. Curnt accounting
systems used by all components to pay trvel and personnel expenses for disaster relief are
inadequate and result in delays in charging payments to the proper accounts.

The Departent    laks clearly defined, up-to-dae plans for restoring programs in future
disasters.

Regional and national plans for program restoration and long term disaster recovery contan
outdated information and rely too heavily on telephone systems. In contrast, the HHS plans
for emergency medcal relief are much more thorough and useful, parcularly preparedess
plans for a California earquake. Most HHS managers said they need plans that are simple,
flexible, updated and practiced fruently.


RECOMMENDATIONS

The Office of the Secretary (OS) and the PHS Offce of the Assistant Secretary for Health
(DASH) should clarify HHS disaster recovery roles and responsibilities.

The OS and OASH should (a) defme precisely how they will implement the Januar 1990
delegation of authority and (b) clarfy the disaster relief and reovery responsibilties of PHS,
other operating divisions (OPDIVs), regional diectors and regional OPDIVs.

The DASH should issue guidelines to improve diaster planning.

The guidelines should mandate simple, flexible plans and fruent practice of these plans.
The plans of each operating and sta division should spell out lines of communication with
each other and should intermesh with the overal HHS disaster plan. The disaster plan should
specify headquarrs and regional lines of communication with FEMA, which should then be
reflected in OPDIV plans. Each plan should be updated periodcally.
The DASH should establish backup communicaton systems and regional command posts.

The backup system could include cellular telephones and radio communication utilizing the
frequency aleady set aside for HHS. To faciltate better communication , the OASH should
mandate that each region establish a regional command post.

The DASH should improve procedures to pay for disaster relief expenditures.

The OASH, working with the HHS Offce of the Assistat Secreta for Management and
Budget, should (a) set up a system to identify existing HHS discretionar and formula grant
funds that could be used to supplement FEMA funding for disaster relief, (b) establish an
improved system , including a common accountig number, to account for disaster payments
and (c) develop procedurs to ensur that the suppon agrment with FEMA for each declared
disaster provides appropriate reimbursement.

AGENCY COMMENTS

The PHS, SSA and Offce of Human Development Services concured with the
recommendations. The Health Car Financing Admistration had no comments. The PHS is
takng steps to clarfy the emergency preparess and disaster reovery roles and
responsibilties of the regional ditors, regional health adnistrtors and others. The PHS
is also revising and simplifying emergency planning and response guidace for OPDIVS and
Staf Divisions, improving internal emergency communication systems and developing
procedurs with FEMA to assur prompt reimbursement for HHS operations in disasters
declared by the President.

We also solicite comments from FEMA. While agreeing with the repon s recommendations,
FEMA generally considere its actions in the disasters to be appropriate, citing (a) limits on
the Federal role durng disasters, (b) the less than catastrophic natue of the earquake and (c)
the necessity for quick action in a disaster allowing litte time for trainig or screening of
non- FEMA personnel. While we did not undenae a comprehensive review ofFEMA'
actions in the dual disasters, we disagree with FEMA' s premise that the nee for quick action
in disaster response precludes carful planning which would optimize the use of HHS
personnel.

The complete texts of the comments are contaed in Appendix A.
                        ...................................................
                             ..............................................
                                                             . . . . . . . . . .. .. .. .. .. .
                         . . . . . ......................................
                                    . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. . . . .




                                                TABLE OF CONTENTS



EXECUTIVE SUMMARY

INTRODUCTION

FINDI NGS 





   The Department responded promptly and
   appropriately to the earthquake and hurricane to
 . restore program operations and provide direct
   disaster relief. 





   The Department experienced internal communication
    problems as well as both communication and

    coordination problems with FEMA. ............................


    Arrangements for funding disaster response activities
    are inadequate. 





    The Department lacks clearly defined, up-to- date

    plans for restoring programs in future disasters. . . 


RECOMMENDATIONS

APPENDIX.                                                                                                                  ............A-1
                                     INTRODUCTION


This inspection evaluated the Deparent of Health and Human Services ' (HS) response to
Hurcane Hugo and Calfornia s earhquake and identified ways to improve futue disaster
response effons. These combined disasters were the most destrctive and costly this centu.
In September 1989, Hurcane Hugo devastated pars of Puert Rico, the Vlfgin Islands and
Nonh and South Carolina. Less than a month later, the Lorna Preta earquake caused
widespread death and destrction in Nonhern California. Both affecte HHS because they (a)
trggered emergency health and other assistace durg the immediate recovery periods and
(b) daaged office buildings and temporarly disrupte some program operations.

The Federa Government always provides financial assistace in the recovery stage when the
President declares a major disaster, but only assists with diect disaster relief when State and
local governments ar unable to do so. When a disaster occurs, local authorities within
damaged areas use all available resoures. If local resources ar inadequate or exhausted,
assistace is requested fIrst from State agencies and then from the Federal government.
Federal effons are coordiated by the Federal Emergency Management Agency (FMA)
which also provides financial assistace to individuals and businesses   for repais, physical
rehabiltation and economic reconstrction.

When a disaster stres, HHS offcials have two major responsibilties: (a) to restore HHS
progr operations as quickly as possible and (b) to provide emergency medcal and public
health services when a State or local government is overwhelmed by the disaster. Executive
Order 12656, issued in November 1988, diects HHS to mobilze the health industr in
national securty emergencies to provide mecal servces and to assist State and local
governments in providing huma servces, including lodgig, foo, clothing and social
services. In major disasters, the Public Health Service (PHS) is the lead agency to provide
emergency medcal and health services under the overal diection of FEMA. Within PHS, the
Offce of the Assistat Secreta for Health (OASH) manages the National Disaster Medical
System, and the Centers for Disease Control (CDC) mae public health expertse avaiable to
the disaster area. Each HHS operating division is responsible for developing adequate
emergency plans for its progrs. The HHS regional diectors ar responsible for preparg
and dissemiating regional emergency plans and for coordinating the regional office response.

METHODOLOGY

We interviewed 68 offcials from HHS, FEMA, other Fedra agencies and State and local
governments who had fist hand information about the relief and recovery efforts in Pueno
Rico, the Vlfgin Islands, South Caolina and California. We did not study Nonh Carolina
experiences. We reviewed arcles, news clippings , situation reports, disaster plans and other
documents perting to the disasters and the governments ' responses.
                                            FINDINGS

   The Department responded promptly and appropriately to the earthquake and hurrcane to
   restore program operations and provid direct disaster relief.

   Following Hurcane Hugo and the Lorn Preta earquake, HHS was responsible primaly
   for restorig normal progr operations. The only signifcant dict relief required in these
   two emergencies occurd though PHS medcal services in the Vlfgin Islands. The Offce of
   Human Development Services (OHDS) and the Famly Suppon Admnistrtion (FSA)
   provided relief funding to each afected ara.

   The effects of the disasters, and hence the nee for relief, were dierent in Pueno Rico, the
   Virgin Islands, South Carolina and California. In St. Croix, 90 percent of homes, the island'
   main hospital and most programs and services were destroyed and disrupted. Law and order
   broke down , and local government was not able to cope with the situation. In the rest of the
   Virgi Islands, in Pueno Rico and in South Carolina, Hurcane Hugo dage was severe,
   but State and local governments were able to deal with most emergency medcal nees. The
   Lorn Preta earquake caused 66 deaths and extensive daage to propeny, bridges and
   highways, but State and local governments were also able to provide neeed emergency
   medical services.

       . Offcials quickly restored HHS programs after the disater.

   Managers in HHS acted immedately to ensur      employee   safety and restore program
   operations. They used initiative without awaiting instrctions. Following the earquake and
   the hurcane, most HHS maagers attempted to reach al their employees to ensur that they
   were safe. Although all employees eventualy were trcked,    the process took afew days
   because telephone lies fruently were    jamed or out of order, and may     managers did not
   have complete lists of employees ' home phone numbers.

   Social Securty Admnistration (SSA) field offces in all four afected aras were closed for up
   to a week , but benefits contiued without interrption. In San Francisco, however, some
   Social Securty recipients would not have received their checks except for the prompt action
   of SSA sta. Although the genera delivery window of the daaged post offce building was
   closed, the SSA sta worked with the U. S. Posta Servce to get notices out and develop
   alternative ways to deliver the checks. In South Carolina, the regional and field offces

delivery
   worked together to assure that Supplementa Securty Income benefits were paid on time
   despite mail 
       problems. Sta also requested ban drts from headquarers in case
   they neeed to make emergency payments.

   The PHS sent architects and engieers to help FEMA and the terrtorial agencies in Pueno
   Rico and the Virgin Islands assess health facilty daage and provided funding for repais
   PHS-supported clinics. Health Care Financing Admnistrtion (HCFA) regional offces
   contacted State health agencies, which in tur determned the extent of facilty dage and the
effects on hospita and nursing home patients. In Region IV, HCFA gave the South Carolina
Deparent of Health and Environmenta Control permssion to suspend surey reviews of
damaged nursing homes and hospitals for a couple of weeks and asked the Peer Review
Organization to be reasonable in their expetations and demads durg the hardship period.
In all disaster areas, however, the HCFA role was prily    to gather informtion from State
agencies. In Pueno Rico, one of the two HCFA fiscal intermedares maaged to reimburse
hospitas by using an old manual tyewrter and a flashlight. Loal bans were then notied
that these checks were valid and asked not to bounce them.

Head Star and other OHDS programs were disrupted in all areas. Although most programs
closed only for a few days, some Vlfgin Islands program were disrupted up to 6 weeks and a
few were still closed at the tie we issued our drt repon. Several senior centers and
developmenta disabilty facilties also were daged, but were quickly restored. When the
disasters closed Head Sta facilties, grante sta worked with famlies and children in their
homes. Several Head Star centers were used as emergency shelters, and their staf worked at
FEMA disaster assistace centers. Grantes also encourged their famlies to go to these
centers to obtan financial assistace. The OHDS sta obtaned daage assessments from
grantees, mae funds avaiable for repai and worked with grantees to secure FEMA
assistace for facilty restoration. At the time we issued our drt report a few facilties on St.
Croix also had not been restored beause of disagreements with FEMA about funding.

The earquake    daaged the San Francisco HHS regional offce. Workig with the General
Services Admnistrtion , HHS offcials were able to make repai       and restore operations
promptly. Although the building was closed for a week to most employees, the closure did not
seriously interrpt HHS progr operations.

      Departmental programs provided limited direct emergency assistance.

In the Vlfgin Islands, much of the health care delivery system was daged. The St. Croix
hospita remans closed beause of water daage. It had ben decertfied even before the
hurcane. In St. John , the hospita was 85 percent destroyed and took
5 months to restore. In St. Thomas, the hospita was daged but remained operational.
Hospitas located on the eastern side of Pueno Rico were closed due to lack of utilities and
diesel fuel for emergency generators. In both Calfornia and South Carolina, hospitals were
able to car for their regular patients as well as disaster victims without strning the facilties.
Nursing home patients were moved from baner islands to an inland facilty for about 10 days,
but services were not denied. Severa community health centers were daaged, but were
restored to full service within a week.

The PHS provided medical sta to both Pueno Rico and the Vlfgin Islands and sent St. Croix
a disaster medcal assistace team includig vector control staf. Ths team staed the
evacuation hospita and operated an emergency rom , clinic and inpatient car facilty. Pueno
Rico did not need diect medcal assistace, although PHS staf worked with Commonwealth
health officials to place patients evacuated from the Virgin Islands. In South Carolina , CDC
provided several staff for mosquito abatement, the only PHS direct assistance in that region.

Both PHS and FEMA officials stated that emergency medical relief services were ready in all
affected areas in California, even though they were not needed because the State and local
governments had the situation under control. Immediately following the earquake, PHS had
medical teams set up west of the Mississippi , alen and ready to go if needed. A PHS official
stated, " All the buttons were there waiting to be pressed to send a lot of people into action.
California let PHS know early, however, that little direct Federal medical assistance was
needed. County governments were able to handle the immediate emergency and did not have
to turn to the State, let alone to the Federal government.

The Food and Drug Administration (FDA) and the National Institutes of Mental Health
(NIMH) also provided direct relief in all the affected areas. Staff from FDA removed
contaminated food and monitored damage to pharaceutical manufacturing plants. All 59
FDA employees stationed in Pueno Rico were assigned to work with the Commonwealth food
and drg agency. The FDA staff faced danger from the public while disposing of
contaminated food because people wanted to consume it. Accordig to the FDA manager for
the San Juan distrct, "We had to call in the police to get rid of food at dump sites and keep
people away. People were fighting us off, tearng off our shins, to get at the perishable,
already spoiled food. "   Overal, there were no repons of ilness because of spoiled food in
Pueno Rico or the Virgin Islands, and eventually an emergency food distrbution     system   was
set up by local governments.

The FDA regional manager in San Francisco reponed that his staff completed emergency
inspection work even though the damaged office and laboratory were closed for a week. The
SSA provided FDA with temporar offce space and supplies. The FDA manager said, "
did without some fies. We used our laboratory people to supplement our investigations staff
and we shipped lab samples to our Los Angeles laboratory.

The Department experienced internal communication problems as well as both
communication and coordination problems with FEMA.

      HHS experienced problems with FEMA.

Both HHS and State offcials had problems coordinating and communicating with FEMA.
Some of these problems caused delays that could have resulted in deaths in a more
catastrophic disaster. For example, FEMA gave a low priority to HHS requests for
transponation to the Virgin Islands, and key equipment and personnel did not arve when they
should. An HHS official in Puerto Rico could not get FEMA to help fly an employee to the
Virgin Islands. He finally aranged transponation through the Customs Service. A local
agency director in the Virgin Islands had to go to several locations to request FEMA'
assistance, but could not locate the correct site. On the other hand , SSA reported good
communication with FEMA in the Virgin Islands because FEMA operated out of the SSA
                                                                       , "




 offce in St. Thomas. A FEMA manager commended PHS staf for their wilingness to accept
 assignments in the Vlfgin Islands and Pueno Rico and to coordinate with other agencies.

  Some significant interagency coordination and communication problems occured when
  FEMA asked for HHS Region IX volunteers to work in disaster assistace centers following
  the earquake. Initially, FEMA requested 250 HHS sta. About 40 HHS staf showed
  for training on the Saturday following the earquake, but several hundred FEMA and State
  employees also came. The FEMA traiing was disorganiz. As a result, HHS staff were left
. with unclear assignments. underassignments or no assignments. The FEMA also used
  untrained California Conservation Corps sta when skiled case and eligibilty workers were
  available. The FEMA brought people frm distat communities and paid them per diem when
  many traied Federa sta were available localy. Most HHS sta said that FEMA needs to
  have better deployment procedures. According to an FSA sta person FEMA would not
  even let HHS people go out and conduct outreach, something that the HHS people are used to
  and goo at. " Region IX HHS officials also had problems getting reimbursement for salares
  and expenses of staf detaled to the disaster assistace centers.

 The FEMA sent confusing messages about what level of disaster response HHS should
 provide. A diective issued immediately following the earquake did not clearly say whether
 Federal catastrophic earquake proedures would be invoked. The FEMA took 2 days to
 clarfy its policy that the earquake did not meet the catastrophic crteria. Because of this
 confusion, regional PHS sta were concerned that they may have given the wrong signals to
 others durg the flfst 48 hour following the earquake. One PHS manager said, " It was not
 clear when or if FEMA would cal on us. There cenaly was fuzziness when we tred to cal
 FEMA that fIrst night. There is no goo way to access FEMA in its regional offce or
 headquarrs. " Although FEMA was ambiguous, State disaster officials clearly declared
 within hour after the earquake that Federal emergency medcal assistace would not be
 needed.

       Telephone problems were widespread.

 Telephone systems in the disaster aras often were inoperative or jamed, and HHS staf
 lacked adequate backup communication equipment. It took frm severa days to severa
 weeks to establish contact with pars of Pueno Rico and the Vlfgin Islands. Telephone
 communication was absent for more than a month in St. Croix and for
 10 days in St. Thomas. A local official in the Vlfgi Islands had to (a) use a radio to
 communicate or (b) drve from place to place to deliver messages. One office in Region II
 could not get though to Puerto Rico because the regular phone lines were busy and fmally
 used the separate electronic mail line. Following the earquake, all Region IX telephones
 were inoperative except for a few old- fashioned .dial phones. Region IV offcials had to wait
 for phone servce to retur   before contactig South Carolina program dictors about the level
 of damage and nee for assistace.
The HHS lacked any kind of systematic emergency rado communication system to replace
inoperative telephones. A dedcate radio fruency set aside for the Secretar has been
sittig idle fer many year. Even when telephone service retured, some Region IX managers
did not have curnt telephone numbers for sta. This hampered effons to ensur that
employees were accounted for and safe. In one office, employee home phone numbers were
locked in the offce vault and were inaccessible after the earquake. Regional staf utilized
several ad hoc, alternative communication methods to replace lost telephone service. The
regional inspector general. for investigations in San Fracisco had a cellular phone in a
government car. San Fracisco s actig regional diector set up a commd center in one of
the few offces in the daaged regional offce building with a workig telephone. The smal
group of regional maagers who collocate to that offce said that the command center
surounte many communication problems.

      Internal HHS coordination problems caused delays.

Some HHS officials said that delays and duplication of effon resulted from the lack of
headquarrs and     regional coordination. They were not sure who was supposed to coordiate
the overall HHS response and criticize the lack of clear procedurs in how to work with other
agencies. Region II maagers expressed the most concern about communication and
coordiation problems, followed by Region IV managers. For example, effons to contact
HHS employees and fmd out whether they were safe were accomplished by individual agency
components, not as a coordinate regional effort. Region n HCFA sta reported that
duplication resulted frm failur to coordinate PHS and HCFA efforts to restore daaged
health facilties in Pueno Rico and the Vlfgi Islads. Region n HCFA sta did not
understand how coordiation was to be achieved The regional diector s offce in Atlanta
cited the need for clear policy guidace on headquarers ' role.

Prmar responsibility for HHS emergency preparedess              and response has changed since the
hurcane and earquake. In Januar 1990, Secta Sullvan transferred primar authority
to the Offce of the Assistat Secta               Under the delegation , OASH
                                         for Health   (DASH).

provides policy guidace   and   monitors the performance of all HHS offcials.

Regional diectors and regional health admnistrtors do not understad their respective
responsibilties following the trsfer of authority. They do not know how much dict
authority OASH or the regional health adnistrtors have over HCFA, SSA and other
components or what the working relationship is between the regional health admnistrtor and
CDC. They also wonder whether regional ditors are sti the priar HHS contact with
State and local officials or whether this function also has been trsferred to OASH. The
OASH has not yet issued policy guidace on roles and responsibilties to implement the
delegation of disaster authority.
Arrangements for funding disaster response activitis are inadquate.

Using FEMA funding, NIMH provided -grts to the States for menta health counseling. All
areas reponed that this program is useful and effective, but some complained that funding
delays for second- phase longer term grts slowed the provision of neeed counseling. In
fact, NIMH was overloaded with applications for grants from State and local menta health
agencies. The NIM is working with FEMA to spee up the application review and approval
process.

Both OHDS and FSA provided discretionar grant funds for Hurcane Hugo relief. The
OHDS Admistration on Aging (AOA) has a small grt program for disaster relief, and FSA
provided funds to the Vlfgin Islands for projects FEMA could not fund to provide jobs to
rebuild senior housing. However, OHDS and FSA did not provide simiar       discretionar grant
funds immediately after the earquake. The AOA mae a disaster        grt to California later, in
Februar 1990. Some San Fracisco regional officials said this was because of ting-- the
hurrcane occur at the end of one fiscal year and the earquake at the beginning of another.
These officials also felt that the HHS operating divisions (OPDIVS) gave a lower priority to
the earhquake than to Hurcane Hugo.

Regional progr staf stated that few discretionar or formula     grt   funds ar avaiable
within the Deparent for use in disaster relief to fil gaps not covered by FEMA or other
Federal agencies. Discretionar funds are usualy encumbered for other puroses, and no
tracking system exists to identify them. Formula grant funds are diffcult to use for disaster
relief because they often reuire speial authorization.

The OASH disaster relief sta reponed that curnt HHS accountig systems used by all
components to pay trvel and personnel expenses for disaster relief ar inadequate and result
in delays in charging payments to the proper accounts. Severa regional program      sta
reponed that no agrments or proedures exist within the Deparent or between the
Deparent and FEMA for reimburement for salar and expenses of sta detaled outside
HHS for disaster relief activities. Furermore, no clear HHS guidelines exist to document
disaster-related costs. This creates diffculties trcking and reimbursing costs   to HHS
OPDNs     and sta divisions (STAFIVs).

The Department laks     clearly defined, up-to-dae plans for restoring programs in future
disasters.

While HHS .has many plans spelling out general roles for restoring program following a
disaster, most ar obsolete, ineffective or overly detaled. In Region IX, for example, at least
seven national and regional earquake and genera disaster maagement plans were in place
prior to theearquake. Yet few people knew about them. Each of the affected regions lacked
simple reportng rosters and diectories showing where to reach people at work and home.
One San Fracisco offce had no paper copies of the emergency telephone lists; the
computerized list was unavailable because the power was out. A regional manager said that
the national PHS response plan is wrtten as if PHS were all " within the Washington , D.
                                                                      , "





 beltway " and that the plan does not spell out regional responsibilties sufficiently. Most of the
 plans depend on telephones, yet the phone lines to disaster areas were all disrupted. 



  Many respondents said that the general management plans were irrelevant to the actual
  hurrcane and earhquake responses. Program restoration steps which regional managers took
  were based on logic and reason and not on a disaster management plan that listed emergency
  actions. A South Carolina manager said that every SSA office is required to have a security
  action plan , but the plan does not address disasters the magnitude of Hurrcane Hugo. One
  PHS manager said that they have a plan for program restoration , but it has been so long since

. they updated it, he does not know if it would be effective. Managers said the plans need to be

  briefer and more flexible; detailed plans are not helpful. Some State and terrtorial plans were

  equally ineffective. According to the Virgin Islands health diector We stared to use our
  plans and then discovered problems. Communications were wiped out. We could not contact
  St. Croix for a full day. The key to the plans is getting in touch with key people, and we could
  not get in touch.

 In contrast, emergency medical plans are more thorough and useful , especially in California.
 These plans are intended primarly for disaster specialists who wil be deployed in medical
 relief activities ,   and many have been updated recently.

 Region IX has been the lead region for earhquake and general disaster planning, serving as a
 model for the other regions. For example, " Response ' 89, " a 2- day training exercise designed
 to simulate a catastrophic earhquake was held by FEMA in California in August 1989 for
 Federal and State officials. This training proved useful when the Lorna Preta earthquake
 strck 2 months later. The HHS Region IX earhquake plan is more complete than any other
 HHS disaster relief plan. Accordig to FEMA offcials, however, even the Region IX plan
 needs to be coordinated better with its national plan.

 Officials in HHS suggest that disaster plans be practiced more regularly. A Region IX PHS
 offcial suggested, "Plans should be simple loose- leaf reference manuals, involve all staff and
 not just emergency specialists, be practiced regularly and be kept up to date. " According to
 the deparmental coordinator, FEMA is planning a major training exercise for 1992 to
 replicate " Response ' 89" in other pars of the countr. Although the greatest attention has
 been given to California, the possibilty for a big disaster exists everywhere.
                                  RECOMMENDATIONS


The OS and the DASH should clafy HHS disaster recovery roles and responsibilities.

They should define clearly how they wil implement the Januar 1990 delegation of authority
for disaster relief and clarfy the disaster relief and reovery responsibilties of PHS, other
operating divisions, regional ditors and regional OPDIVs.

Regional diectors and regional health adnistrtors do not understad their respective roles
in disaster response activities. This is still not sort out under the delegation of authority to
OASH. Duplication of effort and delays in providing disaster relief can be reduced if roles
and responsibilties for each component ar defied clearly.

The DASH should issue guidelines to improve diaster planning.

The OASH should (a) issue overal planning guidace to al operating divisions and sta
divisions based on the reent disaster experience; (b) diect each operating division , regional
office and field instalation to develop a simple, clear, concise and flexible set of procedures
for dealng with emergency contingencies; (c) mandate that each plan spell out lines of
communication within HHS and between HHS and FEMA; (d) ensure that individual
component plans ar compatible with the overal deparenta plan and ar reviewed and
updated periodcally; and (e) conduct fruent, brief traiing sessions at both national and
regional levels.

The Deparent has an overabundance of obsolete, ineffective and overly detaled disaster
plans for restoring progrs. Pror to the 1989 disasters, few sta knew about the plans or
about their roles and responsibilties in disaster reovery. Clear and frequently practiced plans
wil allow a prompt and effective HHS disaster response.


The DASH should establish backup communicaton systems and regional command posts.

This backup communication system could include cellular telephones and radio
communication utilzing the frequency aleady set aside for HHS. The OASH also should
mandate that each region establish a command post.

Curently HHS lacks adequate backup communication systems to use when prima systems,
such as telephones, are out of service. Communication breakdowns occur in both the
hurcane and the earquake. A rado frequency set aside for the Secta has not been used.
Adequate backup systems would ensure that vita communication links are maintaed
between disaster areas and response agencies. Collocatig sta in a command post would
faciltate emergency communication.
The DASH should improve procedures to pay for disaster relief expendiures.

The OASH, working with the Offce of the Assistat Secreta for Management and Budget,
should (a) set up a system to identify existing HHS discrtionar and formula grant funds that
could be used to supplement FEMA fundig for disaster relief,
(b) establish an improved system , including a common accounting number, to account for
disaster payments and (c) develop procedures to ensur that the suppon agreement with
FEMA for each declared disaster provides appropriate reimbursement

An improved accounting and funds trcking system would enable HHS to respond more
rapidly and effectively to disasters and ensure that each HHS component is fully reimbursed
for disaster relief expenses.

AGENCY COMMENTS

The PHS, SSA, and OHDS concured with the reommendations. The HCFA had no
comments. The PHS is tang steps to clarfy the emergency preparedess and disaster
recovery roles and responsibilties of the regional ditors, regional health admnistrators and
others. The PHS is also revising and simpliing emergency planning and response guidance
for OPDIVS and Staf Divisions, improvig internal emergency communication systems and
developing procedurs with FEMA to assur prompt reimbursement for HHS operations in
disasters declared by the Prsident.

We also solicite commnts from FEMA. While agreeing with the repon s recommendations,
FEMA generally considere its actions in the disasters to be appropriate, citing (a) limits on
the Federal role durng disasters, (b) the less than catastrphic natue of the earquake and (c)
the necessity for quick action in a disaster allowing litte time for trainig or screening of
non-FEMA personnel. While we did not undenae a comprehensive review of FEMA'
actions in the dual disasters, we disagree with FEMA' s premise that the nee for quick action
in disaster response preludes carful planning which would optimize the use of HHS
personnel.

The complete texts of the comments are contaed in Appendix A.
 APPENDIX A


Agency Comments

..      .."                                         &.                                                                    :.,.   -..   :. ., ....
                                                                                                                                       ;-;,



                   DEPARTMENT OF HEATH                   HUMA SERVICES                                  Public Healt Serice


     .t""no (;
                                                                                                         Memorandum
                        SEP '1 199

          Date

          From     Assistant Secretary for Health

                                                  " Cop i n g Wit   h T win D                   s: RH S Res p 0 n se t 0

          Subjec   o I G D r aft R    e p 0 r t                                 i s a s t e r

                   the 1989 Hurricane and Earthquake , "                        OEI-09-90-01040


                   Inspector General, OS



                   At t a c h e d   are the c 0 mm e n t s 0        f the Pub   1 i c He   a 1 t h   S e r v   ice 0 n th e

                   subj ect     draft report. Though
                                                 we agree that the HHS disaster
                   response to Hurricane Hugo and the Loma Prieta earthquake was

                   prompt and appropriate, we are supportive of
improved
                   Departmental capabilities to respond to emergencies and
                   disasters.
                   We concur wi t h          the re port                  co mmenda t ions and have taken                 0 r
                                                                   s re
                   are taking action to implement hem.
                                                                                   (), /k
                                                                              Mason, M.            , Dr.





                   Attachment



                                                                                                                                       0' ,-.
                                                                                                                                       me- m

                                                                                                                          c.;:                - ri
                                                                                                                                       ::: r/) ",0_

                                                                                                                                       r-
                                       FDIG
                                       DIG- i'.8
                                                                                                                                              (" C
                                       DIG­
                                       DIG­
                                       AIG­
                                       OGC/IG
                                       EX SEC                V;


                                       DATE                q I/

                              HETH SERVICE ON TH OFFICE OF
         COMMENTS OF THE PUBLIC
      INSPECTOR GENERA'   S DRAT   REPORT " COPING WITH TWIN
 DISASTERS: HHS RESPONSE   TO  THE 1989 HUICAE AND EATHQUAKE"
                OEI- 09- 90- 01040, JULY 31, 1990


OIG Recommendation

1) -- The     Office of the Secretary (OS) and the Office of the
          Assistant Secretary for Health (OASH) should clarify
          HHS disaster recovery roles and responsibilities.
PHS Cornen
We concur. OASH has taken the lead in this area by hosting a

meeting, chaired by the Deputy Assistant Secretary for Health
(DASH), that was held on June 29 with headquarters Operating
Divi' sion (OPDIV) emergency preparedness officials. At that
time, implications of the Secretary s January 8 delegation of
authori ty were discussed. Plans for updating and revising the
Departmen t Emergency Planning and Operations Maual and the
Disaster Response Guides were discussed and input was requested
from the Social Securi ty Admnistration, Heal th Care Financing
Admnistration, Office of Human Development Services, and
Famly Support Admnistration.
OASH, through the Office of Emergency Preparedness (OEP), is

fostering continuing dialogue between the HHS Regional

Directors (RDs) and the PHS Regional Health      Adnistrators
(RH). A statement clarifying the respective emergency
preparedness roles and responsibilities of the RDs and    RH  has
been prepared. This statement was approved by the       RH
                                                         and,  on
August 1, was forwarded by the DASH to the Deputy Under
Secretary for Intergovernental Affairs, Boards and Commssions
for his review and that of the RDs. On August 10, OASH staff
met with the RDs to discuss this draft statement and other

emergency preparednes s     concerns.
                                   This meeting resolved many of
the RDs' concerns. OASH is awaiting comments on the draft
statement from the Deputy Under Secretary for Intergovernental
Affairs, Boards and Commssions. Following approval of a
statement of roles and responsibilities,       forml
                                                 delegations of
authori ty to the RDs and     RH will
                                    be prepared, approved, and
published in the 
Federal Reqister


OASH Office of Emergency Preparedness (OEP) staff participated

in a series of meetings with PHS regional emergency

preparedness officials that were held in conjunction with the
National Disaster Medical System Conference, August 6- 9, in

Memphis, Tennessee. These meetings helped to reinforce the

roles and responsibilities on the       RHs.
                                         To further
coordination on emergency preparedness matters, OEP staff meet

with the RHs during their regular quarterly meetings and

participate in regional conference calls as needed.

Page 2.

OIG Recommendation
2) -- The   OASH should issues guidelines to improve disaster
     planning.
PHS Comment

We concur.     OASH OEP has undertaken the revis  updating, and
                                                   ion,

simplification of emergency planning and response guidance for
OPDIVs, Staff Divisions, and Agencies at Headquarters and
Regional levels. It is expected that draft guidance will be
available for review and comment by October 1, 1990. In
addition, OASH OEP will coordinate the development of HHS
Disaster Response Guides, which will outline the types
emergency assistance provided by the Departent, and the
primary and supporting agencies for providing such assistance.
The target date for completion of these guides is October 1990.
OIG Recommendation

3) -- TheOASH should establish backup communications      systems
     and regional commnd posts.
PHS Comment

We concur. OASH is currently analyzing the need for, and

resource implications of emergency communications systems for

regional command post operations during emergencies and
disasters.   Also, OASH is analyzing the need to enhance
headquarters emergency communications systems and provide
improved emergency communications capability for deployment to
areas affected by major disasters or emergencies.

OIG Recommendation

4) -- TheOASH should Lmprove procedures to pay for disaster
     relief expenditures.
PHS Comment


We concur. OASH is working with appropriate Federal Emergency
Management Agency (FEM) officials to simplify FEM tasking and
mission assignment procedures to assure prompt reimursement
for HHS operations associated with a Presidentially- declared
disaster or emergency. The FEMA mission assignent contains
commi tments for FEM to reimurse HHS for specific tasks.
  ge 3.

Staff from OEP and the OASH Division of Financial Maagement
have discussed the need for clear gudance and procedures for
tracking disaster related expenditures,includiq   the
assignent of  a Common Accountinq Numer (CA) to each disaster
operation.  Such CAs were assigned followinq Huricane Huqo
and the Loma Prieta Earthquake. Improved trackiq   procedures
will be developed in coordination with the PHS Aqencies, other
OPDIVs and the Assistant Secretary for Maagement and Budget
(ASMB) . OASH will work with ASMB to establish a system to
identify existing HHS discretionary and for.ula grant funds
that might be used to supplement FEM disaster relief fundinq.
                                  &. HUMAN SERVICES

                                                               I Y/J
                                                                        ';;
                                                                       Cd /K.    u-
                                                                                         - .-.
                                                                                         "".          ("


                                                                        Social Se curity Admini sfration
                                                                                                           u t;":
           PEPARTMENT OF HEALTH



Date:
           Refer to:
                                                 SEP 24 199

                                                                                       Anr
From:
                                           securi ty
Subject:   Off' e of Inspe       r General Draft Report, "Coping with                 Disasters:
                   Response to the 1989 Hurricane and Eartquake"
                 I-09-90-01040) --INFORMTION
To:
           Mr. Richard P. KUsserow

           Inspector General


           Attached is the response to your draft report.              If we can be of

           furer   assistance, please let us know.

           Attachment:
           SSA response





                                                                                                 moo
                                                                                                 =:1'
                                                                                         V1 :: :: 



                                                                                         ...- j- V5J r:
                                                                                                     c:

. .   -.


           COMMNTS OF THE SOCIAL SECUITY ADMINISTRTION ON TH OFFICE OF
           INSPECTOR GENERAL DRAFT REPORT, "COPING WITH TWIN DISASTERS: HHS
           RESPONSE - TO TH 1989 HUICAN AND EARTHOUAKE" (OEI-09-90-01040)


           Office of Inspector General (OIG) Recommendation
           The Office of the Secretary and the Office of the Assistant
           Secretary for Health (OASH) should clarify the Health and Human
           Services (HHS) disaster recovery roles and responsibilities.
           SSA Response
           We concur with this recommendation. We believe that coordination
           at the regional office level will improve emergency preparedness.
           OIG Recommendation
           The OASH should issue guidelines to improve disaster   planning.
           SSA Response
           We concur with this recommendation. SSA field offices are
           required to possess both an office security plan which includes
           physical and systems security and an Occupant Emergency Plan
           which addresses safeguarding lives and property, including in the
           event of huricanes and eartquakes. Each region has been
           directed to review and update its Emergency Operating Plan and
           forward appropriate portions to central office.
           OIG Recommendation
           The OASH should establish backup communication systems and

           regional command posts.

           SSA Response

           We concur with this recommendation. We agree that adequate
           backup systems would assure that vital communication links are
           maintained between disaster areas and response agencies.
           OIG Recommendation
           The OASH should improve procedures to pay for disaster   relief
           expenditures .
           SSA Response

           We concur with this recommendation. An improved accounting and

           funds tracking system would enable HHS to respond more rapidly

           and effectively to disasters and ensure that each component
           within the departent is fully reimbursed for disaster relief

           expenses.
      :,;. 	 '
        !\
      ..-
!t,,,VIC, .
            . "                        ;:        '"

                                                             ,Jt.(/(.,?1
                                                                              "----

                                                                                      Offce of
                                                                                                           : -;

                                                                                                          :-
                                                                                                          :-. --




                     DEPARTMT OF REm                  HUN SEVICE                      Human Development Services


41a
                                                                                      Asistant Secretar
                                                                                      Washington DC 20201-0001




                          ,Jw
                                                                                                              C" ':

                                                                                                          I": il1 m
                                                                                                  I'.)

                                                                                                          e_.- ..­
                                                                                                           ;; c

                  TO:	          Richard P. Kusserow                                                       . ri f"
                                Inspector General
                  FROM:         Assistant Secretary
                                  for Human Development Services
                  SUBJECT:	     OIG Draft Report: " Coping with Twin Disasters:
                                HHS Response to the 1989 Hurricane and Earthquake,
                                OEI-09-90-0l040
                  We agree with the findings of the subject draft report. The
                  report accurately describes the assistance given and the
                  inadequac ies in federal emergency procedures.

                  We wish to emphasize in particular our concurrence with the
                  recommendations that seek to clarify HHS disaster recovery roles
                  and respons    ibili ties,
                                        provide guidelines to improve disaster
                  planning, establish backup communication systems, and improve
                  procedures to pay for disaster relief expenditures.
                  Thank you for this opportuni             : review t




                                                                       Gall


                                    PDIG

                                    DIG­

                                    DIG­

                                    DIG- OI 

                                    AIG- MP 

                                    OGC/IG
                                    EX SEC



                                      /; /11


                              199     :: I:
                                            1;
                                                                                                                       ..
                                                                                                                    :. ,    . :.. .::
                                                                                                                            ::.       .. ':.
                                                                                                                                   ;':?   \'.
                                                                                                                                          -::




                               Federal Emergency 

                                                                                               ent Agency
                                                             Washington, D.   C. 20472 DIG­

                                                                                          DIG-I
                                                                                                                    AIG­

                                                                                                   OCT 2 5   !990

                                                                                                                              SE!IT
Mr. Richard P. Kusserow
Inspector Genera
Department of Health & Human                                          Services
Office of Inspector General
Washington, D.    20201               C.
Dear Mr. Kusserow:                                                                    09-   'It;   01040
                                                                                                                                      ,r
This is in response to your letter of July 31, 1990, to Mr. J                                                              ry '
D. Jennings, Deputy Director, Federal Emergency Management Agency 


(FEMA) , in which you requested review and comment on the                                                           diit
inspection report entitled "coping With Twin Disasters: HHS
Response to the 1989 Hurricane and Earthquake.

          general regarding the need for better coordination
between FEMA and HHS on disaster response plans
      agree in
                                                         and
responsibi ities.                                     report
                   Most of the problems cited in the draft
                                                         in-depth
are valid, but the report does not always communicate an 

understanding of the real issues, systems and procedures utilized
by FEM and other agencies in responding'     to                   The                       the disasters.
report appears too subj ecti ve rather  than  being  a  mechanism for
fact finding and subsequent problem correction. I suggest changing
the format of the report to include      Descr      on of the Problem          (1)


followed by     Pro osal for Solution
                                (2)   . Using   this format, we offer

the following suggestions to better serve as the basis for improved

 procedures in the fu ture .

 ISSUE 1:                 Amb:iity Reaardj.nCf                        the Neeq. for Me             Ass stance (Pace

             The system, under which local                                    governents are responsible for

 responding to                          local disaster situations and under which local

                                                  assistance from and provide information

 governments must request
 to state governments, limits the Federa governent' s ability to

 be the most knowledgeable of a disaster 
         Federal agencies                  event.
 must become familiar with the system and their responsibilities in

 order to reduce false expectations. Under the "Plan for Federal

 Response to a Catastrophic Eartquake" (the "Plan ), the Public

 Health service h.as the responsibility to coordinate with the 

 State medical counterpart regardinq need. for supp emental Federal

 assistance and to provide information on medical requirements to

 FEM .
  Since Hurricane Hugo and the Loma Prieta earthquake, FEMA the
                                                             has

  been reviewing the concept of operations as developed in 

  Plan. Though the Plan was not formally activated in either of

  these disasters, the structure of the Plan, grouping essential and

  activities such as transportation, communications, and health 

- .'




       medical services under Emergency Support Functions (ESFs) was
       utilized successfully in the Loma Prieta response. The Plan is
                                          IIFederal Natural Disaster
       being extensively rewritten as the 

       Response Plan" to better address any disaster situation which

       requires Federal response.

       The revised Plan focuses particularly on the need for individuals
       to deploy as part of an interagency response team in order
       establish early liaison both with F 1A and the affected state.
       This team will also be the nucleus of the ESP operational
       acti vi       tie? to
                     follow. We believe that based on our experience
       Hurricane Hugo and the Lama Prieta eartquake, we are better
       prepared to utilize the resources of the Federal governent in
       providing timely assistance to a state affected by a disaster.
       ISSUE :2: Leve+ of Dj aster Response (page ,. 6) -         The "Planlf was
       originally based on a catastrophic             eartquake of unprecedented
       proportions in which the State would be quickly overwhelmed and
       imediate  Federal assistance to provide lifesavinq and protection
       of life would be required. A severe but ,less than catastrophic
       disaster, such as the Loma Prieta              eartquake, did result in
                                                                     some
       unclear information ceinq provided by  FEM   headquarters to the
       Federal coordinating Officer and from the Federal coordinatinq

       officer and staff to 
  e Federal agencies as to whether or not

       the Plan was ceinq activated and to what extent it would 

       utilized to conduct the response. 
  o correct this problem, lEM
       has  eveloped an operational concept using a response and

       recovery organization which will address the requirements of any

       disaster situation. This concept is also being incorporated

       into the revised Plan-


       ISSUE 3: Ear                 (page 6) cation
                                               The Reqion IX Interagency
       steering Committee had not completed the notification and

       activation procedures before the Loma Prieta earthquake. This

       resul ted in lack of timely and appropriate communication between
            and the other Federal agencies. The Region IX steering

       Committee meets monthly to develop and refine procedures for a

       catastrophic disaster. The Fiscal Year 1990 work plan included

       developing the regional notification, deployment, and disaster

        field office procedures.  As the Loma Prieta             eartquake occued
       before these procedures were fully developed, there were limited
       notification and activation procedures utilized durinq the
       disaster. By the end of Fiscal Year 1990 interim supplements will
       be developed and the notification procedures will be drilled and
       activated. The Fiscal Year 1991 work plan includes continuing
       development of these detailed procedures and will involve all
         agencies under the Plan.
                                                       In view of the
IS UE :   FEMA Tr . ina Was Disor anized a e 6
urgency of the situation, and the requirement for the entire
Federal government to respond quickly to a disaster of theto
magnitud of the Lama Prieta Eartquake, it was necessary  requirements
train personnel as rapidly as possible in the basic

for the positions they were to assume.    since  the  Disaster
Application Centers (DACs) were to be opened within several days                  facilities
following the President' s declaration, and since these
were the initial focal point of the response operation,        the
                                                     effort. The

immediate staffing of the DACs became a critical            to be

training was considered by most of those receiving      it  

                                                 assiqnments to the

adequate to provide the fourtdations for their             inadequate.
DACs, although the physical traininq environment was
ApproximatelY 300 personnel were given one day of trainin

                                                                   prior

 to their assignment to specific 
DACs. Individual     and   in-depth
                                                                  was

 training was not possible under the circustances, and it
 clear that                 furter
                     training would have to be accomplished on the
                                                     c effectively

 job. We                                          for such an event,.
                       do, however, recognize the requirement

 and efficiently train a large 
                                numer of staff
 and we are enhancing our current traininq capability with future

 additional resources to better address this situation in      form, and

 disasters - We are revising our basic DAC reqistration

 are also proceeding to automate it in 1991. This development    staff

 will result in the need for only minimal function.
                                            training of DAC

 before they will be able to perform the 

                                  th Unclear Assianments

  Underassi nments or No Assianments (paae 6). There was       not
 ISSUE 5: ijS Staff Were Left 





  sufficient time allowed, due to the urgency of the 

                                                         situation,     for
  detailed personnel screening to determine the best     person
                                                    staff,         thisthe

                                                              an for
  best job. The initial requirement was for DAC                    the

  was the aim of the training and was the basis for much of 

  initial assignments. Some HHS personnel were assigned different

  duties; however , without the opportunity to  conduct a detailed

                                             specific   assignents
 analysis of the initial staffing charts

  HHS personnel cannot be provided at this

                                                     The effort was       time.
  made to continuously review assignments, and to additional

                                                     make such

  reassignments as was necessary in the light of 

  information on personnel capabilities.

  Amonq resources available , FEMA used California conservation

                                                      inqual assistance

   corps (CCC) personnel in the DACs to provide   bi
                                          other CCC staff were

   to the applicants and the DAC staff.                     erie      and
   assigned to various duties consistent with their e r tra          ng,
  training.   Some of these personnel, because of the control.
   were assigned duties in data entry and document 

...




      I trust these comments will be helpf   in developing your final

      report .




                                       nt C. Peterson

                                    Associate Director

                                    State and Local Proqr

                                      and support
